No.

IN THE
SUPREME COURT OF THE UNITED STATES
RAKEEM DAVIS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

Jacqueline E. Shapiro
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. 305-403-8207
shapiro.miamilaw@gmail.com
Counsel for Petitioner

QUESTION PRESENTED
In Rehaif v. United States, 139 S. Ct. 2191, 2194 (2019), this Court held that
18 U.S.C. §§ 922(g) and 924(a)(2) require the government to prove that “the
defendant knew he possessed a firearm and also that he knew he had the relevant
status when he possessed it.” The “relevant status” pertinent to this case is that
Petitioner had a prior conviction for “a crime punishable by imprisonment for a term
exceeding one year.” 18 U.S.C. § 922(g)(l). The circuits are expressly split on a
question of great importance with respect to cases that were tried to a jury before this
Court decided Rehaif:
When determining whether a defendant’s substantial rights were affected by an
indictment and jury instructions that omitted an essential element of a § 922(g)(l)
offense, i.e., that the defendant knew he previously had been convicted of a crime
punishable by imprisonment for a term exceeding one year, may a reviewing court
consider facts about a defendant’s criminal history that were not admitted at trial,
including facts culled from a presentence report?

i

INTERESTED PARTIES
The caption contains the names of all of the parties interested in the
proceedings.

ii

TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTERESTED PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The Circuits Are Expressly Divided on an Important and Recurring
Question. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

II.

The Decision Below Is Wrong and Resulted in a Violation of
Petitioner’s Constitutional Rights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit United
States v. Rakeem Davis, No. 18-10140, 811 Fed.Appx. 508 (April 20,
2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 1
Decision of the Court of Appeals for the Eleventh Circuit denying
petition for panel rehearing, United States v. Rakeem Davis, No.
18-10140 (June 22, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 8
iii

Decision of the Court of Appeals for the Eleventh Circuit United
States v. Rakeem Davis, No. 18-10140, 777 Fed.Appx. 360 (June 12,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 9
Decision of the Court of Appeals for the Eleventh Circuit denying
petition for panel rehearing, United States v. Rakeem Davis, No.
18-10140 (Aug. 14, 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 27
Judgment of Conviction, United States District Court, S.D. Fla.,
United States v. Rakeem Davis, No. 17-cr-20582-JEM (Jan. 10,
2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 28

iv

TABLE OF AUTHORITIES
CASES:
Johnson v. United States, 520 U.S. 461 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Old Chief v. United States, 519 U.S. 172 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . 15
Rehaif v. United States, 139 S.Ct. 2191 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
Sullivan v. Louisiana, 508 U.S. 275 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 12
United States v. Benamor, 937 F.3d 1182 (9th Cir. 2019) . . . . . . . . . . . . . . . . . . 10
United States v. Dominguez Benitez, 542 U.S. 74 (2004) . . . . . . . . . . . . . 11, 12, 14
United States v. Haynes, 958 F.3d 709 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Heard, 951 F.3d 920 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Hollingshed, 940 F.3d 410 (8th Cir. 2019) . . . . . . . . . . . . . . . . . 10
United States v. Huntsberry, 956 F.3d 270 (5th Cir. 2020) . . . . . . . . . . . . . . . 9, 11
United States v. Jackson, 120 F.3d 1226 (11th Cir. 1997) . . . . . . . . . . . . . . 4, 9, 16
United States v. Lara, 970 F.3d 68 (1st Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . 9, 11
United States v. Maez, 960 F.3d 949 (7th Cir. 2020) . . . 8, 9, 10, 11, 12, 13, 14, 15
United States v. McLellan, 958 F.3d 1110 (11th Cir. 2020) . . . . . . . . . . . . . . . . . 10
United States v. Medley, 972 F.3d 399 (4th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Miller, 954 F.3d 551 (2d Cir. 2020) . . . . . . . . . . . . . . 9, 11, 12, 13
United States v. Moore, 954 F.3d 1322 (11th Cir. 2020) . . . . . . . . . . . . . . . . . . . 10
v

United States v. Raymore, 965 F.3d 475 (6th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 9
United States v. Reed, 941 F.3d 1018 (11th Cir. 2019) . . . . . . . . . . 5, 10, 11, 13, 14
United States v. Vonn, 535 U.S. 55 (2002) . . . . . . . . . . . . . . . . . . . . . . . . 11, 12, 14
United States v. Ward, 957 F.3d 691 (6th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 9, 10
United States v. Warren, 951 F.3d 946 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . 9
United States v. Welch, 951 F.3d 901 (8th Cir. 2020) . . . . . . . . . . . . . . . . . . . . . . . 9
United States v. Young, 470 U.S. 1 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
STATUTORY AND OTHER AUTHORITY:
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 8, 13, 14, 16
18 U.S.C. § 922(g) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 2, 3, 6, 7, 9, 15
18 U.S.C. § 924(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 3
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Crim. P. 11 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Fed. R. Evid. 403 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Sup. Ct. R. Part III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

vi

PETITION FOR WRIT OF CERTIORARI
Rakeem Davis respectfully petitions the Supreme Court of the United States for
a writ of certiorari to review the decision of the United States Court of Appeals for the
Eleventh Circuit, entered in case number 18-10140 on April 20, 2020, United States
v. Davis, 811 Fed.Appx. 508 (11th Cir. 2020).
OPINION BELOW
This Court granted Petitioner’s previous petition for writ of certiorari on
January 27, 2020, vacating the judgment of the Eleventh Circuit and remanding for
further consideration in light of Rehaif v. United States, 139 S.Ct. 2191 (2019). See
Davis v. United States, 140 S.Ct. 952 (2020).
On remand, the Eleventh Circuit affirmed Petitioner’s conviction in an
unpublished opinion. United States v. Davis, 811 Fed.Appx. 508 (11th Cir. 2020), see
App. 1-7. Petitioner filed a petition for en banc rehearing, which the Eleventh Circuit
denied. App. .
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and Part III
of the Rules of the Supreme Court of the United States. The Court of Appeals issued
its decision on April 20, 2020. App. 1–7. Petitioner filed a timely petition for

1

rehearing en banc on May 11, 2020, and the Court of Appeals denied the petition on
June 22, 2020, App. 8. This petition is timely filed.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner relies upon the following constitutional and statutory provisions:
U.S. Const. amend. V (due process clause):
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury ... ; nor
shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law.
U.S. Const. amend. VI (right to jury trial in criminal cases):
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him;
to have compulsory process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defence.
Title 18, United States Code, Section 922(g):
It shall be unlawful for any person–
( 1) who has been convicted in any court of, a crime punishable by
imprisonment for a term exceeding one year ...
to ... possess in or affecting commerce, any firearm or ammunition.

2

Title 18, United States Code, Section 924(a)(2):
Whoever knowingly violates subsection ... (g) ... of section 922 shall be
fined as provided in this title, imprisoned not more than 10 years, or
both.
STATEMENT OF THE CASE
Petitioner was charged in a one-count indictment with violating 18 U.S.C. §
922(g)(1). The indictment alleged that Petitioner, “having been previously convicted
of a crime punishable by imprisonment for a term of exceeding one year, did
knowingly possess a firearm and ammunition in and affecting interstate commerce….”
Petitioner exercised his right to a jury trial. When the district court instructed
the jury on the elements of the charged offense, it did not require the jury to find that
Petitioner knew he previously had been convicted of a crime punishable by
imprisonment for a term exceeding one year. At the conclusion of trial and following
jury deliberations, the jury returned a general verdict of guilty. At sentencing, the
district court imposed a 100-month term of imprisonment and a three-year term of
supervised release.
In Rehaif v. United States, 139 S.Ct. 2191, 2194 (June 21, 2019), this Court
held that 18 U.S.C. §§ 922(g) and 924(a)(2) require the government to prove not only
that “the defendant knew he possessed a firearm,” but “also that he knew he had the
relevant status when he possessed it.” Rehaif overturned contrary decisions of the
3

courts of appeals, including that of the Eleventh Circuit. See United States v. Jackson,
120 F.3d 1226, 1229 (11th Cir. 1997); Rehaif, 139 S.Ct. at 2210 n.6 (Alito, Thomas,
JJ., dissenting) (citing Jackson and other decisions).
At the time Rehaif was decided, Petitioner’s direct appeal was pending. The
Eleventh Circuit, on affirmed Petitioner’s conviction and sentence on June 12, 2019,
see App. 9–26, and Petitioner thereafter filed a certiorari petition, seeking relief under
Rehaif. On February 28, 2020, this Court granted certiorari, vacated Petitioner’s
judgment, and remanded for further proceedings in light of Rehaif. Davis v. United
States, 140 S.Ct. 952 (2020).
On remand, the Eleventh Circuit directed the parties to file simultaneous
supplemental letter briefs. Petitioner argued Rehaif established he was entitled to relief
on three grounds: (1) the indictment was fatally defective because it omitted an
essential element; (2) the trial evidence was insufficient to support the conviction
because the government failed to prove Petitioner knew he previously had been
convicted of a crime punishable by imprisonment for a term exceeding one year; and
(3) the district court’s jury instructions omitted an essential element of the charged
offense because it did not require proof that Petitioner knew of his status. Petitioner
argued that, in assessing whether the trial errors affected his substantial rights for the
purpose of plain-error review, the court should consider only evidence that was
4

admitted at trial.1 In contrast, the government urged the Eleventh Circuit to review the
entire record, including information about Petitioner’s criminal record that appeared
in a post-trial presentence report (PSR).
The Eleventh Circuit affirmed Petitioner’s conviction in an unpublished
decision. App. 1–7. The Eleventh Circuit concluded that plain error occurred when the
indictment failed to allege that Petitioner knew he was a felon and when the jury was
not required to find he knew he was a felon. App. 5–6. The Eleventh Circuit, however,
concluded that the plain errors did not affect Petitioner’s “substantial rights or the
fairness, integrity, or public reputation of his trial.”2 App. 6. In reaching this
conclusion, the district court relied on “the whole record,” and it cited United States
v. Reed, 941 F.3d 1018, 1021 (11th Cir. 2019), to support its consideration of the
“whole record.” App. 4–5.

1

Petitioner argued the indictment error was subject to de novo review, because
the Rehaif argument was not reasonably available before trial.
2

To obtain relief on plain-error review, a defendant must show “(l) error, (2)
that is plain, and (3) that affects substantial rights.” Johnson v. United States, 520 U.S.
461, 467 (1997) (internal quotation marks and bracket omitted). “If all three
conditions are met, an appellate court may then exercise its discretion to notice a
forfeited error, but only if (4) the error seriously affects the fairness, integrity, or
public reputation of judicial proceedings.” Id. (internal quotation marks and bracket
omitted).
5

The Eleventh Circuit thus did not confine its review to the evidence that had
been admitted at trial. By considering additional information, the Eleventh Circuit
implicitly concluded that the trial evidence was not sufficient to sustain Petitioner’s
conviction in light of Rehaif. In addition to the trial evidence, the Eleventh Circuit
relied on information concerning Petitioner’s criminal history that appeared
exclusively in his PSR. App. 3, 6. Based on these sources, the Eleventh Circuit
surmised that Petitioner “knew he was a felon.” App. 6.
Petitioner filed a petition for rehearing en banc, arguing inter alia that the
Eleventh Circuit erred when it looked beyond the trial record for the purpose of
assessing the effect of the trial errors on his substantial rights. On June 22, 2020, the
Eleventh Circuit summarily denied the rehearing petition. App. 8.
REASONS FOR GRANTING THE PETITION
In Rehaif, this Court narrowed the reach of 18 U.S.C. § 922(g) by holding that,
to secure a conviction, the government must prove not only that “the defendant knew
he possessed a firearm,” but also “that he knew he had the relevant status when he
possessed it.” 139 S.Ct. at 2194. The “relevant status” material to this case is that the
defendant must have a prior conviction of “a crime punishable by imprisonment for
a term exceeding one year.” 18 U.S.C. § 922(g)(l).

6

When Rehaif was decided, Petitioner had been convicted by jury trial of
violating § 922(g)(l), and he was pursuing review of his conviction. Numerous
persons across the country were in the same position, and federal appellate courts
therefore have been called upon to review Rehaif errors for plain error in a multitude
of cases. In performing this plain-error review, the appellate courts have taken
different approaches regarding the nature and scope of information they will consider
when assessing whether plain Rehaif errors have affected a defendant’s substantial
rights.
At this time, the circuits are irreconcilably divided on the question of whether
a reviewing court must limit its consideration to trial evidence when determining if
a defendant’s substantial rights were affected by Rehaif error, or whether it may
consider information outside the scope of the trial record.
In the decision below, the Eleventh Circuit affirmed Petitioner’s § 922(g)(1)
conviction in reliance on information about his criminal record that had not been
presented to the jury. App. 3, 6. From this information, the Eleventh Circuit inferred
that Petitioner knew he previously had been convicted of an offense punishable by a
sentence exceeding one year. App. 6. The Eleventh Circuit concluded that Petitioner’s
substantial rights therefore were not affected by the failure of indictment to allege his

7

knowledge of his status, or by the district court’s failure to require the jury to find
Petitioner knew of his status. App. 6.
Nine circuits have issued published decisions on the question presented here.
Some have agreed with the approach taken by the Eleventh Circuit, while others have
placed narrower boundaries on the information they will consider when analyzing the
effect of Rehaif error. This irreconcilable split among the circuits strongly supports
review by this Court.
The Eleventh Circuit erred by considering information about Petitioner’s
criminal record that was not proven to a jury. The Eleventh Circuit’s reliance on
information outside of the trial record squarely implicates the Sixth Amendment. See
United States v. Maez, 960 F.3d 949, 961 (7th Cir. 2020) (noting Sixth Amendment
concerns and limiting review to the evidence admitted at trial for the purpose of
determining whether the defendant’s substantial rights were affected by Rehaif error)
(citing Sullivan v. Louisiana, 508 U.S. 275, 279 (1993)). Additionally, the Eleventh
Circuit’s reliance on information outside of the trial record demonstrates that the trial
evidence alone was not sufficient to establish that the Rehaif error did not affect
Petitioner’s substantial rights. Thus, a new trial is warranted. For these reasons,
Petitioner requests this Court’s review.

8

I.

The Circuits Are Expressly Divided on an Important and Recurring
Question.
Before Rehaif, the courts of appeals agreed uniformly that, while the

government was required in a § 922(g) prosecution to prove the defendant knew he
possessed a firearm, it was not required to prove he knew he belonged to a category
of persons barred from possessing a firearm. See, e.g., United States v. Jackson, 120
F.3d 1226, 1229 (11th Cir. 1997); see also Rehaif, 139 S.Ct. at 2210 n.6 (Alito,
Thomas, JJ., dissenting) (citing decisions). Numerous § 922(g) convictions were in
the appellate pipeline when Rehaif was decided, triggering numerous requests for
relief under Rehaif.
“Courts across the nation are grappling with how Rehaif affects cases pending
on direct appeal when it came down.” United States v. Maez, 960 F.3d 949, 953 (7th
Cir. 2020). Nine circuits have issued published decisions addressing Rehaif in §
922(g)(1) cases where defendants were tried to juries before Rehaif was decided.3 The

3

E.g., App. 1–7 (Eleventh Circuit decision in this case); United States v. Lara,
970 F.3d 68 (1st Cir. 2020); United States v. Miller, 954 F.3d 551 (2d Cir. 2020);
United States v. Medley, 972 F.3d 399 (4th Cir. 2020), reh’g en banc granted, No.
18-4789, 2020 WL 6689728 (4th Cir. Nov. 12, 2020); United States v. Huntsberry,
956 F.3d 270 (5th Cir. 2020); United States v. Raymore, 965 F.3d 475 (6th Cir. 2020);
United States v. Ward, 957 F.3d 691 (6th Cir. 2020); United States v. Maez, 960 F.3d
949 (7th Cir. 2020); United States v. Haynes, 958 F.3d 709 (8th Cir. 2020); United
States v. Warren, 951 F.3d 946 (8th Cir. 2020); United States v. Heard, 951 F.3d 920
(8th Cir. 2020); United States v. Welch, 951 F.3d 901 (8th Cir. 2020); United States
(continued...)
9

circuits have taken three distinctly different approaches regarding the sources of the
information they have consulted when determining the effect of Rehaif errors under
plain-error review.
In four circuits, including the Eleventh Circuit in this case, the courts have
considered facts reported in sentencing reports that were not admitted at trial when
considering the third prong of plain-error review, which asks whether the error
affected the defendant’s substantial rights. See Maez, 960 F.3d at 960, stating “Four
circuits have freely consulted materials not before the jury – in particular, criminal
histories from defendants’ presentence investigation reports (PSRs) – without
discussing the propriety of thus expanding the record” (citing United States v. Ward,
957 F.3d 691, 695 & n.1 (6th Cir. 2020); United States v. Reed, 941 F.3d 1018, 1021
(11th Cir. 2019); United States v. Hollingshed, 940 F.3d 410, 415–16 (8th Cir. 2019);
United States v. Benamor, 937 F.3d 1182, 1189 (9th Cir. 2019)). In each of these
circuits, the courts concluded the defendants could not show their substantial rights
were affected by plain Rehaif error.

3

(...continued)
v. Hollingshed, 940 F.3d 410 (8th Cir. 2019), cert. denied, 140 S.Ct. 2545 (2020);
United States v. Benamor, 937 F.3d 1182 (9th Cir. 2019), cert. denied, 140 S.Ct. 818
(2020); United States v. McLellan, 958 F.3d 1110 (11th Cir. 2020); United States v.
Moore, 954 F.3d 1322 (11th Cir. 2020); United States v. Reed, 941 F.3d 1018 (11th
Cir. 2019).
10

In Petitioner’s case, the Eleventh Circuit cited its prior decision in Reed, 941
F.3d at 1021, to support its “whole record” approach to considering the effect of plain
error. App. 4–5. Reed, in turn, cited to this Court’s guilty-plea decisions in United
States v. Vonn, 535 U.S. 55 (2002), and United States v. Dominguez Benitez, 542 U.S.
74 (2004), to support its decision to consider the “whole record” to affirm a trial
conviction on plain-error review. Reed, 941 F.3d at 1021. In Vonn, 535 U.S. at 74–75,
this Court decided that a court of appeals may review the “entire” record to assess the
effect of plain error under Federal Rule of Criminal Procedure 11. In Dominguez
Benitez, 542 U.S. at 83, the Court held that a defendant raising a nonconstitutional
Rule 11 error in his guilty plea must show a reasonable probability he would not have
pleaded guilty but for the error, a claim that is “informed by the entire record.”
Two circuits, the First and Fifth, opted to take judicial notice of defendants’
prior felony convictions. Lara, 970 F.3d at 88 (1st Cir.); Huntsberry, 956 F.3d at 284
(5th Cir.). Based on judicially-noticed facts, these courts concluded the defendants in
Lara and Huntsberry could not meet either prongs three or four of plain-error review.
970 F.3d at 88–90; 956 F.3d at 286–87.
Courts in the Second and Seventh Circuits have expressly rejected the approach
taken by the Eleventh Circuit in Petitioner’s case and Reed (and by the Sixth, Eighth,
and Ninth Circuits). Miller, 954 F.3d at 558–60 & n.24 (2d Cir.); Maez, 960 F.3d at
11

959–62 (7th Cir.). In the Second and Seventh Circuits, the courts have limited their
review to the trial evidence when determining whether plain Rehaif error affects the
defendant’s substantial rights. Miller, 954 F.3d at 558–59 (“[W]e appropriately limit
ourselves to the evidence actually presented to the jury”); Maez, 960 F.3d at
961(approving the approach taken in Miller).
The Seventh Circuit’s decision in Maez extensively analyzed the various
approaches taken by the different circuits. Maez, 960 F.3d at 959–62. In rejecting the
Eleventh Circuit’s approach, the Seventh Circuit held that this Court’s decision in
Sullivan mandated restricting consideration to trial evidence. Maez, 960 F.3d at 961.
“The inquiry...is not whether, in a trial that occurred without the error, a guilty verdict
would surely have been rendered, but whether the guilty verdict actually rendered in
this trial was surely unattributable to the error.” Sullivan, 508 U.S. at 279, quoted in
Maez, 960 F.3d at 961.
The Seventh Circuit also observed that this Court’s decisions in Vonn and
Dominguez Benitez, cited by the Eleventh Circuit, had permitted a review of the entire
record for a different purpose—to conduct a “cost-benefit analysis” in the context of
a defendant’s decision about whether to plead guilty—rather than to affirm a
conviction based on evidence never admitted at trial. Maez, 960 F.3d at 961. Both the
Second and Seventh Circuits declined to rely on evidence that had not been admitted
12

at trial for purposes of considering the third prong of plain-error review. Miller, 954
F.3d at 559; Maez, 960 F.3d at 960–61. Nevertheless, both circuits concluded they
could appropriately rely on facts about the defendant’s prior convictions, including
information not admitted at trial, to decide whether to exercise their discretion at the
fourth prong of plain-error review. Miller, 954 F.3d at 559; accord Maez, 960 F.3d at
961.
The circuits are thus divided on how to apply plain-error review in cases that
were tried to a jury before this Court decided Rehaif. This question of whether
appellate courts may consider information the government did not present at trial, and
against which the defendant had no opportunity to defend before the jury, presents a
significant constitutional issue for the many cases being reviewed in light of Rehaif.
II.

The Decision Below Is Wrong and Resulted in a Violation of Petitioner’s
Constitutional Rights.
The Eleventh Circuit’s decision to affirm Petitioner’s conviction after trial

based on information not admitted at trial has no support in this Court’s precedents
and raises significant Sixth Amendment issues.
The Eleventh Circuit consulted information beyond the trial record in reliance
on a prior Eleventh Circuit decision, which in turn cited decisions of this Court. But
this Court’s decisions do not support the Eleventh Circuit’s decision. In this case, the
Eleventh Circuit cited to its prior decision in Reed, 941 F.3d at 1021, for the
13

proposition that it could “consult the whole record to determine whether the [error]
affects substantial rights.” App. 4–5. Reed cited three Supreme Court decisions to
support its reliance on the “whole” or “entire” record: United States v. Dominguez
Benitez, 542 U.S. 74, 83 (2004); United States v. Vonn, 535 U.S. 55, 59 (2002); and
United States v. Young, 470 U.S. 1, 16 (1985). Reed, 941 F.3d at 1020, 1021. Only
one of these decisions, Young, involved a trial. In that case, the Court examined the
propriety of the prosecutor’s closing argument in view of the entirety of the closing
arguments and the trial evidence. 470 U.S. at 16-20. In doing so, the Court did not
expand the record to consider information that had not been admitted at trial. See id.
Regarding Vonn and Dominguez Benitez, the Seventh Circuit recognized that
this Court’s decisions in those cases permit a review of the entire record for a different
purpose – to conduct a cost-benefit analysis to determine whether the defendant would
have declined to enter a guilty plea in the absence of Rule 11 error. Maez, 960 F.3d
at 960 (citing Vonn, 535 U.S. at 74-75; Dominguez Benitez, 542 U.S. at 80, 83). These
guilty-plea decisions do not support the Eleventh Circuit’s decision to affirm
Petitioner’s conviction after trial based on information that was not admitted at trial.
Although Petitioner argued that the Sixth Amendment precluded consideration
of information outside of the trial record, the Eleventh Circuit did not address the
Sixth Amendment implications of its decision to rely on such information. App. 1–7.
14

Instead, as the Seventh Circuit observed with respect to Reed, the Eleventh Circuit
“freely consulted materials not before the jury – in particular, criminal histories from
[defendant’s PSRs] – without discussing the propriety of thus expanding the record.”
Maez, 960 F.3d at 960. The Eleventh Circuit relied on sentencing facts, which are
subjected to a lesser preponderance-of-evidence standard, to infer an element the
government is required to prove under Rehaif beyond a reasonable doubt to support
a conviction under § 922(g).
By relying on information gleaned from the PSR, the Eleventh Circuit
implicitly acknowledged that the trial evidence was not sufficient to sustain
Petitioner’s conviction in light of Rehaif. The trial evidence consisted of two
stipulations: an Old Chief stipulation, wherein Petitioner agreed that he had been
convicted of a felony offense, i.e., a crime punishable by imprisonment for a term
exceeding one year,4 and a stipulation stating that Petitioner was convicted in 2015 in
a Florida court of “the felony offense of knowingly possessing a firearm after having
been convicted of a felony.” App. 2. Petitioner entered into these stipulations with the
benefit of counsel and in light of then-binding precedent requiring the government to

4

In accordance with this Court’s ruling in Old Chief v. United States, 519 U.S.
172, 174 (1997) (addressing Fed. R. Evid. 403), it is common for defendants charged
with violating § 922(g)(1) to stipulate at trial that they previously had been convicted
of a crime punishable by imprisonment for a term exceeding one year.
15

prove the defendant’s knowledge only as to the possession element, and not the status
element. See Jackson, 120 F.3d at 1229. The stipulations accordingly did not address
whether Petitioner knew at the time of the firearm possession that he previously had
been convicted of a crime punishable by a term of imprisonment exceeding one year.
Moreover, multiple factors undermine any assumption that the prior Florida
conviction for possessing a firearm after a felony conviction demonstrated knowledge
of a prior conviction for a crime punishable by a term of imprisonment exceeding one
year. Petitioner’s PSR showed he was adjudicated guilty simultaneously of resisting
an officer without violence and possessing a firearm as a felon. It is plausible that
Petitioner was not aware that he had been convicted of both charges. Additionally, the
record does not reflect that Petitioner knew that every felony under Florida law was
punishable by a term of imprisonment exceeding one year.
The Eleventh Circuit’s reliance on information outside the trial evidence to
review the Rehaif error demonstrates that the Court did not deem the trial evidence
sufficient in itself to establish that Petitioner knew his status at the time of the firearm
possession. The Eleventh Circuit’s reliance on sentencing information, which was not
tested at trial, violated Petitioner’s Sixth Amendment right to have his guilt or
innocence determined at trial.

16

Given all of these circumstances, Petitioner’s case presents an excellent
opportunity to resolve a question of great importance that divides the circuits.
CONCLUSION
For the foregoing reasons, the Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
JACQUELINE E. SHAPIRO, ESQ.
Counsel for Petitioner
Miami, Florida
November 2020

17

APPENDIX

Case: 18-10140

Date Filed: 04/20/2020

Page: 1 of 7

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10140
Non-Argument Calendar
________________________
D.C. Docket No. 1:17-cr-20582-JEM-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
RAKEEM ASAAD DAVIS,
a.k.a. Poo Poo,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(April 20, 2020)
ON REMAND FROM THE UNITED STATES SUPREME COURT
Before ROSENBAUM, MARCUS, and JULIE CARNES, Circuit Judges.
PER CURIAM:

App. 1

Case: 18-10140

Date Filed: 04/20/2020

Page: 2 of 7

This appeal returns to us on remand from the Supreme Court of the United
States. After we affirmed Davis’s conviction and sentence for unlawfully possessing
a firearm and ammunition after a felony conviction, United States v. Davis, 777 F.
App’x 360 (11th Cir. 2019), the Supreme Court issued its decision in Rehaif v.
United States, 588 U.S. —, 139 S. Ct. 2191 (2019). The Court then granted Davis’s
petition, vacated our judgment, and remanded his appeal for further consideration in
light of Rehaif. For the reasons that follow, we conclude that Davis is not entitled
to relief from his conviction based on Rehaif. We therefore affirm his conviction.
I.
Davis’s indictment alleged that he, “having been previously convicted of a
crime punishable by imprisonment for a term exceeding one year, did knowingly
possess a firearm and ammunition in and affecting interstate and foreign commerce,
in violation of Title 18, United States Code, Sections 922(g)(1) and (2).” Davis pled
not guilty and proceeded to trial.
At trial, the government introduced stipulations stating that Davis previously
had been convicted of two felony offenses, including a conviction for “the felony
offense of knowingly possessing a firearm after having been convicted of a felony.”
After both parties rested, the district court instructed the jury that in order to return
a verdict of guilty, it had to find beyond a reasonable doubt that Davis “knowingly
possessed” a firearm or ammunition and that he “had been convicted of a felony,

App. 2

Case: 18-10140

Date Filed: 04/20/2020

Page: 3 of 7

which is a crime punishable by imprisonment of more than one year.” The jury
returned a guilty verdict.
Davis raised no objections to his presentence investigation report (“PSR”).
The PSR reported that Davis had several prior felony convictions, including a
conviction for possessing a firearm as a convicted felon. It appears that the longest
period Davis served in custody for these offenses was 366 days in jail, only three
days of which occurred after sentencing, with the remainder credited as time served.
The district court sentenced Davis to 100 months in prison. Davis appealed,
arguing that the court erred in these three ways: (1) denying without inquiry his pretrial motion for substitution of counsel; (2) failing to instruct the jury that it was
required to reach unanimity as which firearm Davis possessed; and (3) failing to
follow proper procedures at sentencing. We affirmed Davis’s conviction and
sentence, see Davis, 777 F. App’x at 368, and then denied his petition for rehearing.
After Rehaif was decided, Davis petitioned for a writ of certiorari. The
Supreme Court granted the petition, vacated the judgment, and remanded this case
for further consideration in light of Rehaif. We asked the parties to file supplemental
briefs addressing Rehaif’s impact on this appeal. Davis requests that we vacate his
conviction because Rehaif made plain that errors occurred when his indictment
failed to allege, his jury was not instructed to find, and the government did not prove
that he knew he was a felon when he possessed the firearm. The government

App. 3

Case: 18-10140

Date Filed: 04/20/2020

Page: 4 of 7

responds that we should affirm because Davis has not established that these errors
affected his substantial rights.
II.
In Rehaif, the Supreme Court held that, “in a prosecution under 18 U.S.C.
§ 922(g) and § 924(a)(2), the Government must prove both that the defendant knew
he possessed a firearm and that he knew he belonged to the relevant category of
persons barred from possessing a firearm.” 139 S. Ct. at 2200. In so holding, Rehaif
abrogated United States v. Jackson, 120 F.3d 1226, 1229 (11th Cir. 1997), which
held that a defendant’s knowledge of his status as a convicted felon was not an
element of § 922(g)(1).
“We review for plain error [Davis’s] new challenges to his indictment, the
jury instructions, and the sufficiency of the evidence[]” based on Rehaif. United
States v. Reed, 941 F.3d 1018, 1020 (11th Cir. 2019) (citations omitted); see United
States v. Moore, — F.3d —, 2020 WL 1527975, at *12 (11th Cir. March 31, 2020)
(reviewing materially identical arguments for plain error). To obtain relief, Davis
“must prove that an error occurred that was both plain and that affected his
substantial rights.” Reed, 941 F.3d at 1021. If he does so, we may exercise our
discretion to correct the error if it seriously affects the fairness, integrity, or public
reputation of judicial proceedings. Id.

App. 4

Case: 18-10140

Date Filed: 04/20/2020

Page: 5 of 7

We may consult the whole record to determine whether the effect affects
substantial rights. Id. (“[W]e consider proceedings that both precede and postdate
the errors about which [the defendant] complaints.”). An error affects substantial
rights if there is a “reasonable probability that, but for the error, the outcome of the
proceeding would have been different.” Molina-Martinez v. United States, 578 U.S.
—, 136 S. Ct. 1338, 1343 (2016) (citation and quotation marks omitted). If the
record clearly establishes that the defendant knew of his status as a felon, he cannot
show that his substantial rights were affected. See Moore, 2020 WL 1527975, at
*12 (holding that Rehaif errors did not affect substantial rights because “the record
clearly establishes that both Appellants knew they were felons”); Reed, 941 F.3d at
1022 (“Because the record establishes that Reed knew he was a felon, he cannot
prove that the errors affected his substantial rights or the fairness, integrity, or public
reputation of his trial.”).
Davis has established errors in his indictment and at his trial that Rehaif, which
applies in this direct appeal, made plain. 1 See Johnson v. United States, 520 U.S.
461, 468 (1997) (“[W]here the law at the time of trial was settled and clearly contrary
to the law at the time of appeal—it is enough that an error be ‘plain’ at the time of

1

To the extent Davis argues that the defective indictment deprived the district court of
subject-matter jurisdiction over his case, that argument is foreclosed by Moore. See Moore, 2020
WL 1527975, at *11 (“[T]he omission of an element in an indictment does not deprive the district
court of subject matter jurisdiction.).

App. 5

Case: 18-10140

Date Filed: 04/20/2020

Page: 6 of 7

appellate consideration.”). Specifically, Rehaif made clear that the government must
prove that a defendant knew he belonged to the relevant category of persons—here,
those with a prior felony conviction—that § 922(g) prohibits from possessing a
firearm. Because the indictment did not allege, the government was not required to
prove, and the jury was not instructed to find that Davis knew he was a felon, these
were errors that are plain under Rehaif.
Nevertheless, Davis has not demonstrated a reasonable probability that, but
for the errors, the outcome of the proceeding could have been different. See MolinaMartinez, 136 S. Ct. at 1343. When Davis possessed the firearm, he had been
convicted of at least two felony convictions in a Florida court. While the PSR
indicates that most of Davis’s prior sentences were for terms of less than one year,
he cannot plausibly claim ignorance of his status as a felon because, as he stipulated
at trial, he previously had been convicted of “the felony offense of knowingly
possessing a firearm after having been convicted of a felony.” That conviction,
along with his other criminal history, clearly establishes that Davis knew he was a
felon when he possessed a firearm. “Because the record establishes that [Davis]
knew he was a felon, he cannot prove that the errors affected his substantial rights
or the fairness, integrity, or public reputation of his trial.” Reed, 941 F.3d at 1022.
For these reasons, we affirm Davis’s conviction in light of Rehaif, and we
reinstate our previous opinion in this case.

App. 6

Case: 18-10140

Date Filed: 04/20/2020

AFFIRMED.

App. 7

Page: 7 of 7

Case: 18-10140

Date Filed: 06/22/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10140-EE
________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
RAKEEM ASAAD DAVIS,
a.k.a. Poo Poo,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
ON REMAND FROM THE UNITED STATES SUPREME COURT
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: ROSENBAUM, MARCUS, and JULIE CARNES, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

App. 8

Case: 18-10140

Date Filed: 06/12/2019

Page: 1 of 18

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10140
Non-Argument Calendar
________________________
D.C. Docket No. 1:17-cr-20582-JEM-1
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
RAKEEM ASAAD DAVIS,
a.k.a. Poo Poo,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(June 12, 2019)
Before MARCUS, ROSENBAUM, and JULIE CARNES, Circuit Judges.
PER CURIAM:

App. 9

Case: 18-10140

Date Filed: 06/12/2019

Page: 2 of 18

Rakeem Davis appeals his conviction and sentence for unlawful possession of
a firearm and ammunition. He argues that he is entitled to a new trial for two reasons:
(1) the district court failed to conduct an inquiry into his counsel’s pretrial motion to
withdraw; and (2) the court failed to give a special instruction to the jury to ensure
unanimity with respect to the factual grounds of conviction. He also challenges his
sentence, arguing that the court procedurally erred by failing both to verify that he
and his counsel had reviewed the presentence investigation report and to calculate
the guideline range. After careful review, we reject these arguments and affirm.
I.
Davis was indicted in August 2017 for possession of a firearm and
ammunition after a felony conviction, in violation of 18 U.S.C. § 922(g)(1). The
indictment charged possession of a Browning 9mm handgun and ten rounds of 9mm
ammunition on July 29, 2017. Davis pled not guilty.
About two weeks before the trial was scheduled to start in late October 2017,
Davis’s counsel, Ruben Garcia, who had been appointed in early September 2017
under the Criminal Justice Act, 18 U.S.C. § 3006A, moved to withdraw. Counsel
sought withdrawal due to “unreconcilable differences about the conduct of the
Defendant’s defense and because Mr. Davis does not trust counsel and he wishes to
proceed to trial.” Counsel explained that he had met with Davis four times and had
gone over the evidence, jury instructions, voir dire questions, the government’s

App. 10

Case: 18-10140

Date Filed: 06/12/2019

Page: 3 of 18

intent to introduce Rule 404(b), Fed. R. Evid., evidence, and a plea offer and
proposed factual proffer. At the last conference, according to counsel, Davis had
“angrily ended” the conversation and asked for Garcia to withdraw. Counsel wrote
that “Davis does not believe undersigned counsel is acting in Defendant’s best
interest and believes that counsel wants the Defendant to plead guilty.”
Nevertheless, counsel stated that he had informed the government that Davis was
going to trial.
The district court denied the motion a few days later at a status conference.
The court stated that it had reviewed the motion and the reasons given therein. The
court then addressed Davis as follows:
Mr. Davis, I just want to tell you, you can replace him with any lawyer
you want if you can hire a lawyer, but you got a competent lawyer. Mr.
Garcia is a competent lawyer that has been tried and tested. We have - he has tried many cases in front of me. He is a competent lawyer. He
may not be telling you what you want to hear, but I bet he’s telling you
what the law is. And if you find another lawyer, I want to tell you that
he better be ready to go to trial next week because that’s when the trial
is set. Excuse me. A week from Monday.
And whether -- it seems to be the motion du jour over at the
prison now that a week or two before trial, they say oh, I don’t like my
lawyer anymore, he’s not giving me good advice and I’m not going to
take it anymore, I want a new lawyer and then try to get a continuance.
I don’t know for what reason, but it’s not happening. The case is going
to trial.

App. 11

Case: 18-10140

Date Filed: 06/12/2019

Page: 4 of 18

Without asking to hear from Davis or Garcia, the court found that Garcia was “more
than capable of representing [Davis]” in this “very simple case” and denied the
motion to withdraw.
The case proceeded to trial. A confidential informant (“CI”) testified that he
met up with Davis and Emmanuel Duncanson on July 28. According to the CI,
Duncanson asked the other two if they had a gun, and Davis said he could get one.
The CI further testified that Davis gave directions to an apartment. On the way,
Duncanson announced that he wanted to kill a man named Ike for interfering with
his sister’s drug business.

At the apartment, the CI attested, Davis showed

Duncanson two handguns and a rifle, which were lying on a bed. Duncanson
selected one of the handguns, and Davis carried it out of the house. The CI then
drove Duncanson and Davis to an apartment complex where they spotted Ike. The
CI explained that when Davis refused to shoot at Ike, Duncanson grabbed the gun
and fired several shots out of the car window, which missed, as the CI sped away
from the scene.
At 2:00 a.m. the next morning, July 29, federal law-enforcement agents
executed a search warrant at the apartment where Davis had retrieved the gun before
the shooting. Davis and a woman were present in the apartment. The search
revealed two handguns:

(1) a Browning 9mm loaded with three rounds of

ammunition; and (2) an SCCY 9mm loaded with seven rounds of ammunition.

App. 12

Case: 18-10140

Date Filed: 06/12/2019

Page: 5 of 18

According to the CI, both guns were present at the apartment before the shooting,
but only the SCCY 9mm was used in the shooting. A federal law-enforcement agent
testified that Davis was not charged with possession of the SCCY 9mm because
there was no evidence it had moved in interstate commerce. The parties stipulated
that Davis was not permitted to possess a firearm due to a prior felony conviction.
Based upon the parties’ joint proposed jury instructions, the district court
informed the jury that “[t]he sole count of the indictment charges the Defendant with
being a felon in possession of a firearm and ammunition,” and that the jury would
be given a copy of the indictment. The court instructed the jury that the offense had
two elements: (1) knowing possession of a firearm or ammunition in or affecting
interstate commerce, (2) that occurred after having been convicted of a felony. The
court cautioned the jury that Davis was “on trial only for the specific crime charged
in the indictment” and that it was the jury’s job “to determine from the evidence in
this case whether the Defendant is guilty or not guilty of that specific crime.” The
court further advised that the “verdict, whether guilty or not guilty, must be
unanimous. In other words, you must all agree.” Finally, when going over the
general verdict form—which simply asked the jury to find whether Davis was guilty
or not guilty—the court reiterated to the jury that the verdict needed to be unanimous.
Defense counsel did not object to these instructions.
The jury unanimously found Davis guilty.

App. 13

Case: 18-10140

Date Filed: 06/12/2019

Page: 6 of 18

Davis’s presentence investigation report (“PSR”) recommended a total
offense level of 24 and criminal-history category of V.

This established a

recommended guideline imprisonment range of 92 to 115 months. Davis did not file
any objections. The government filed a sentencing memorandum.
The district court began sentencing by stating that it had reviewed the PSR,
the government’s sentencing memorandum, and the addendum to the PSR, and the
court noted that no objections had been made. The court then asked the parties for
their views on an appropriate sentence. The government asked for a sentence at the
“high end of the guidelines,” citing the seriousness of the offense conduct and
Davis’s substantial criminal history. Davis’s counsel argued for a sentence at “the
low end of the guidelines, 92 months,” referencing the PSR and asserting that
Davis’s criminal history was due to drug abuse, lack of guidance, and other
circumstantial factors. Davis personally requested 92 months.
The district court sentenced Davis to 100 months. The court explained that it
believed Davis was “a danger to the community” but that it wanted to give Davis an
opportunity to reform by sentencing him “toward the low end of the guideline
range,” though not “all the way down to 92.” Davis did not raise any objections at
sentencing. He now appeals.
II.

App. 14

Case: 18-10140

Date Filed: 06/12/2019

Page: 7 of 18

Davis first appeals the denial of his counsel’s motion to withdraw, which we
will characterize as a “substitution motion.” Davis argues that the district court erred
in failing to conduct an inquiry into why he wanted new counsel and that he was
prejudiced by counsel’s continued representation during trial.
Substitution motions must be decided “in the interests of justice,” 18 U.S.C.
§ 3006A(c), a standard that “contemplates a peculiarly context-specific inquiry,”
Martel v. Clair, 565 U.S. 648, 663 (2012). In reviewing substitution motions, we
consider several factors, including the timeliness of the motion; the adequacy of the
court’s inquiry into the merits of the motion; and the asserted cause for the motion,
including the extent of the conflict or breakdown in communication between the
defendant and his counsel. Id.; United States v. Calderon, 127 F.3d 1314, 1343 (11th
Cir. 1997). “Because a trial court’s decision on substitution is so fact-specific, it
deserves deference[.]” Martel, 565 U.S. at 663–64. We may overturn it “only for
an abuse of discretion.” Id. at 664; Calderon, 127 F.3d at 1343.
The first factor—the timeliness of the motion—slightly favors denial. While
counsel appears to have promptly moved to withdraw when asked by Davis, the
substitution motion was filed just two weeks before the trial was scheduled to begin
and after a continuance had already been granted. While we see nothing to indicate
intentional delay, we also understand the court’s concern about the potential for
delay. Cf. Robinson v. Boeing Co., 79 F.3d 1053, 1055 (11th Cir. 1996) (“Courts

App. 15

Case: 18-10140

Date Filed: 06/12/2019

Page: 8 of 18

have long accepted that resulting delay may justify the exercise of a trial judge’s
discretion to deny substitute counsel in the midst of litigation.”).
The second factor—the adequacy of the court’s inquiry—cuts in favor of
Davis. As the Supreme Court has stated, “courts cannot properly resolve substitution
motions without probing why a defendant wants a new lawyer.” Martel, 565 U.S.
at 664. The district court must engage in at least some inquiry about “the source and
factual basis” of the defendant’s dissatisfaction with an attorney, even if the judge is
professionally acquainted with the attorney. United States v. Young, 482 F.2d 993,
995 (5th Cir. 1973)1; see also Brown v. United States, 720 F.3d 1316, 1336 (11th
Cir. 2013) (“The trial court is obliged to explore the extent of the conflict and any
breakdown in communication between the lawyer and the client.”). Moreover, such
“an on-the-record inquiry into the defendant’s allegations ‘permit[s] meaningful
appellate review’ of a trial court’s exercise of discretion.” Martel, 565 U.S. at 664.
The district court here addressed the substitution motion at a hearing and
considered the reasons for withdrawal listed in the motion. But the court did not
probe the extent of the conflict and any breakdown in communication,
notwithstanding the court’s professional familiarity with Davis’s counsel or its

1

This Court adopted as binding precedent all Fifth Circuit decisions prior to October 1,
1981. Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc).

App. 16

Case: 18-10140

Date Filed: 06/12/2019

Page: 9 of 18

doubts about the motivations behind the motion. See Brown, 720 F.3d at 1336;
Young, 482 F.2d at 995.
Nevertheless, we do not believe that the district court’s failure to probe more
deeply is enough, on this record, to render the court’s ruling an abuse of discretion.
That’s because Garcia, Davis’s counsel, listed the reasons for withdrawal in the
substitution motion, and the court reasonably could have concluded that further
inquiry was unnecessary because the clearly listed reasons did not warrant
substitution. See McKee v. Harris, 649 F.2d 927, 934 (2d Cir. 1981) (“If the reasons
are made known to the court, the court may rule without more.”); cf. Young, 482
F.2d at 995 (stating that inquiry is necessary when the defendant presents a
“seemingly substantial complaint about counsel”). In other words, the third factor—
the asserted cause for the motion—strongly favors denial of the motion.
“An indigent criminal defendant has an absolute right to be represented by
counsel, but he does not have a right to have a particular lawyer represent him, nor
to demand a different appointed lawyer except for good cause.”

Thomas v.

Wainwright, 767 F.2d 738, 742 (11th Cir. 1985); see United States v. Garey, 540
F.3d 1253, 1263 (11th Cir. 2008) (en banc). Whether good cause exists “cannot be
determined ‘solely according to the subjective standard of what the defendant
perceives.’” Thomas, 767 F.2d at 742 (quoting McKee, 649 F.2d at 932). For that

App. 17

Case: 18-10140

Date Filed: 06/12/2019

Page: 10 of 18

reason, “[a] defendant’s general loss of confidence or trust in his counsel, standing
alone, is not sufficient.” Id.
Here, the substitution motion reveals little more than Davis’s “general loss of
confidence or trust in his counsel,” Garcia. Id. According to the motion, the conflict
between attorney and client was that Garcia wanted Davis to accept the
government’s plea offer, but Davis wanted to proceed to trial. As a result, Davis did
not trust Garcia and did not believe that Garcia was acting in his best interests. In
resolving the motion, the court understood that the nature of the conflict stemmed
from Davis’s dissatisfaction with Garcia’s plea advice, see Doc. 85 at 2 (“He may
not be telling you what you want to hear, but I bet he’s telling you what the law is.”),
which alone does not constitute good cause, see McKee, 649 F.2d at 932–33
(defendant’s dissatisfaction with counsel’s “frank advice” to plead guilty does not
amount to good cause). And the record reflects that Garcia respected Davis’s desire
to proceed to trial and was prepared for it. Because the clearly listed reasons in the
substitution motion did not indicate that Davis could establish good cause, we cannot
say that the court abused its discretion in denying the motion without a probing
inquiry.
Nevertheless, we acknowledge that our review is inhibited by the district
court’s lack of a formal inquiry. See Martel, 565 U.S. at 664. All we have to go on
is the substitution motion itself. And the motion may not fully convey “the extent

App. 18

Case: 18-10140

Date Filed: 06/12/2019

Page: 11 of 18

of the conflict and any breakdown in communication,” which is why further inquiry
by the court is generally necessary. See Brown, 720 F.3d at 1336.
However, while the district court should have probed the matter more deeply
at the status hearing, and even assuming the court erred in failing to do so, we
conclude that the failure to conduct an inquiry in this case was harmless. 2 See
McKee, 649 F.2d at 933 (“[W]hile [the trial judge] should have conducted a formal
inquiry, the failure to do so in this case was harmless.”). In his briefing on appeal,
Davis does not suggest any other reason beyond those listed in the motion that would
have been elicited by a formal inquiry. His reply brief merely states that he “lacked
confidence in his attorney’s ability or willingness to advocate effectively on his
behalf,” which is not sufficient to warrant substitution. See Thomas, 767 F.2d at
742. Nor can we infer a breakdown in communication from the trial errors allegedly
committed by counsel—asking a particular question on cross-examination and
failing to request a special verdict—since they do not appear to stem in any way
from the dispute that precipitated the substitution motion.

2

Aside from those

Our harmlessness inquiry focuses on the state of facts at the time of the substitution
motion. While Davis argues that the failure to inquire into a substitution motion warrants a new
trial, a remedy some courts have granted in the past, the Supreme Court has now stated that “[t]he
way to cure that error” is to remand to the district court “to decide whether substitution was
appropriate at the time of [the substitution motion].” Martel, 565 U.S. at 666 n.4 (noting that the
court of appeals had “ordered the wrong remedy even assuming the District Court had abused its
discretion in denying Clair’s substitution motion without inquiry”). Because the remedy for a lack
of inquiry would be remand for consideration of the substitution motion, we must consider whether
Davis could show on remand that substitution was appropriate at the time the motion was filed.

App. 19

Case: 18-10140

Date Filed: 06/12/2019

Page: 12 of 18

unrelated errors, Davis has pointed us to nothing in the record that would suggest
that the conflict between Davis and Garcia affected Davis’s trial defense.
Accordingly, despite the court’s failure to conduct an appropriate inquiry, we cannot
conclude that Davis was harmed by that failure.
We therefore affirm the district court’s denial of the substitution motion.
III.
Davis next argues that the district court plainly erred by failing to instruct the
jury that it was required to reach a unanimous decision about which, if any, firearm
or ammunition Davis possessed, and where and when any possession occurred. He
says that jurors could have made conflicting findings on these points, in violation of
his Sixth Amendment right to a unanimous jury verdict, because the evidence
showed possession of guns or ammunition at three separate points: (1) before the
shooting, when the guns were at the apartment; (2) during the shooting, when the
uncharged gun was used; and (3) after the shooting, when both guns and all
associated ammunition were found in separate locations in the apartment.
We review this argument for plain error because Davis did not object to the
jury instructions before the district court. United States v. Felts, 579 F.3d 1341,
1343 (11th Cir. 2009). Under the “plain error” standard, the defendant must
demonstrate that (1) an error occurred, (2) the error was plain, and (3) the error
affected substantial rights. Id. at 1344. “An error is not plain unless it is contrary to

App. 20

Case: 18-10140

Date Filed: 06/12/2019

Page: 13 of 18

explicit statutory provisions or to on-point precedent in this Court or the Supreme
Court.” United States v. Hoffman, 710 F.3d 1228, 1232 (11th Cir. 2013) (quotation
marks omitted). Further, “[j]ury instructions will not be reversed for plain error
unless the charge, considered as a whole, is so clearly erroneous as to result in a
likelihood of a grave miscarriage of justice, or the error seriously affects the fairness,
integrity, or public reputation of judicial proceedings.” United States v. Starke, 62
F.3d 1374, 1381 (11th Cir. 1995) (quotation marks omitted).
“[A] jury in a federal criminal case cannot convict unless it unanimously finds
that the Government has proved each element.” Richardson v. United States, 526
U.S. 813, 817 (1999). But “a federal jury need not always decide unanimously
which of several possible sets of underlying brute facts make up a particular element,
say, which of several possible means the defendant used to commit an element of
the crime.” Id. For instance, jury disagreement about whether a robber used a knife
or a gun—a disagreement about means—would not matter so long as the jury
“unanimously concluded that the Government had proved the necessary related
element, namely, that the defendant had threatened force.” Id.
Relying on Richardson’s distinction between elements and means, several of
our sister circuits have concluded that jury unanimity is not required as to the
particular firearm or ammunition possessed for purposes of § 922(g). E.g., United
States v. Pollock, 757 F.3d 582, 587–88 (7th Cir. 2014); United States v. Talbert,

App. 21

Case: 18-10140

Date Filed: 06/12/2019

Page: 14 of 18

501 F.3d 449, 451–52 (5th Cir. 2007); United States v. DeJohn, 368 F.3d 533, 542
(6th Cir. 2004); United States v. Verrecchia, 196 F.3d 294, 298–301 (1st Cir. 1999).
These circuits have reasoned that unanimity is not required because the particular
firearm or ammunition possessed is not an element of the crime under § 922(g) but
instead the means used to satisfy the element of “any firearm or ammunition.” E.g.,
DeJohn, 368 F.3d at 541–42.
Here, Davis has not established plain error. Davis has identified no “on-point
precedent in this Court or the Supreme Court” holding that a special unanimity
instruction is required in the circumstances presented by this case. See Hoffman,
710 F.3d at 1232. Nor is it obvious or clear that the matters he wished to have
decided by special verdict are elements of the offense requiring unanimity, as
opposed to “possible sets of underlying brute facts [which] make up a particular
element” for which unanimity is not required. Richardson, 526 U.S. at 817. For
example, numerous circuits have held that jury unanimity is not required as to the
particular firearm or ammunition possessed. Pollock, 757 F.3d at 587–88; Talbert,
501 F.3d at 451–52; DeJohn, 368 F.3d at 542; Verrecchia, 196 F.3d at 298–301.
Accordingly, even assuming the court erred, the error was not “plain.”
Davis’s reliance on United States v. Garcia-Rivera, 353 F.3d 788 (9th Cir.
2003), is unavailing. First, that decision is from the Ninth Circuit, so it cannot
establish a “plain” error in this Circuit. See Hoffman, 710 F.3d at 1232.

App. 22

Case: 18-10140

Date Filed: 06/12/2019

Page: 15 of 18

Second, even if Garcia-Rivera were somehow binding here, it is not on point.
The indictment in Garcia-Rivera charged possession of a firearm over a time frame
between May 19, 2001, and June 7, 2001. 353 F.3d at 790. At trial, the court
instructed the jury that, to find the defendant guilty, it must find that the possession
occurred (a) uninterrupted between May 19, 2001, and June 7, 2001; (b) about a
week after the purchase of the firearm; and (c) on June 7, 2001. Id. The court told
the jury that it “must unanimously agree that the possession occurred during (a)
above, or on (b) or (c) above.” Id. The Ninth Circuit held that this instruction was
“fatally ambiguous” because the “jury could have concluded that they were required
to decide unanimously only that possession occurred during any of the three times
enumerated, not that they had to unanimously agree on which one.” Id.
No similar ambiguity is present here. The indictment charged possession of
a single firearm and ammunition on a specific date, July 29, which was after the
shooting. And the district court’s unanimity instructions, though general, were not
“fatally ambiguous” like the choose-your-own-adventure instructions in GarciaRivera. The court here repeatedly instructed the jury that its verdict must be
unanimous and the jurors “must all agree.” So even assuming there were multiple
possible sets of facts on which Davis’s conviction could have been based, jurors
would have understood from the court’s instructions that they were required to “all
agree” on which set of facts grounded the conviction. The instructions, considered

App. 23

Case: 18-10140

Date Filed: 06/12/2019

Page: 16 of 18

as a whole, were not “so clearly erroneous as to result in a likelihood of a grave
miscarriage of justice” or to “affect the fairness, integrity, or public reputation of
judicial proceedings.” Starke, 62 F.3d at 1381.
For these reasons, Davis has not shown that the district court plainly erred in
failing to give a specific instruction on unanimity.
IV.
Finally, Davis contends that the district court procedurally erred at sentencing
in two ways: (1) failing to verify that Davis and his counsel had reviewed the PSR
and addendum, as required by Rule 32, Fed. R. Crim. P.; and (2) failing to calculate
the applicable guideline range at sentencing. We review these arguments for plain
error because they were raised for the first time on appeal. See United States v.
Vandergrift, 754 F.3d 1303, 1307 (11th Cir. 2014) (applying plain-error review
where the defendant failed to object to a claimed procedural error).
Sentencing courts “should begin all sentencing proceedings by correctly
calculating the applicable Guidelines range,” which is “the starting point and the
initial benchmark.” Gall v. United States, 552 U.S. 38, 49 (2007). The failure to
calculate the guideline range is a “significant procedural error.” Id. at 51. Before
calculating the guideline range, the district court “must verify that the defendant and
the defendant’s attorney have read and discussed the [PSR] and any addendum to
the report.” Fed. R. Crim. P. 32(i)(1)(A). No specific inquiry is required for the

App. 24

Case: 18-10140

Date Filed: 06/12/2019

Page: 17 of 18

district court to meet its obligation under Rule 32, as long as the record indicates that
counsel reviewed the PSR with the defendant. See United States v. Aleman, 832
F.2d 142, 144 & n.6 (11th Cir. 1987) (applying a prior version of Rule 32(i)(1)(A)).
Here, Davis has not established plain error. Even assuming that the district
court erred by failing to verify that Davis and his counsel had reviewed the PSR and
by failing to state the guideline range on the record at sentencing, Davis has not
shown that these errors affected his substantial rights. See Felts, 579 F.3d at 1343.
First, the sentencing transcript indicates that Davis’s counsel had reviewed the
PSR. After the court noted that there were no objections to the PSR, counsel argued
for a sentence at “the low end of the guidelines, 92 months,” which was the range
recommended by the PSR, and he cited facts from the PSR in support of that request.
Although the court did not verify that Davis personally had reviewed the PSR,
nothing in the record indicates that sentencing would have gone any differently had
the court personally questioned Davis.
Second, the record is clear that the district court implicitly adopted the PSR’s
guideline range of 92 to 115 months. And both parties framed their arguments based
on that range. The government asked for a sentence at “the high end of the guidelines
in this case[,] which is 115 months.” Davis’s counsel argued for a sentence at “the
low end of the guidelines, 92 months.” The district court then sentenced Davis
“toward the low end of the guideline range,” but not “all the way down to 92.”

App. 25

Case: 18-10140

Date Filed: 06/12/2019

Page: 18 of 18

Because there was no confusion about the guideline range on which the sentence
was based, Davis has not shown that the court’s failure to state the guideline range
on the record affected his substantial rights.
V.
We affirm Davis’s conviction and sentence.
AFFIRMED.

App. 26

Case: 18-10140

Date Filed: 08/14/2019

App. 27

Page: 1 of 1

Case 1:17-cr-20582-JEM Document 61 Entered on FLSD Docket 01/10/2018 Page 1 of 6

App. 28

Case 1:17-cr-20582-JEM Document 61 Entered on FLSD Docket 01/10/2018 Page 2 of 6

App. 29

Case 1:17-cr-20582-JEM Document 61 Entered on FLSD Docket 01/10/2018 Page 3 of 6

App. 30

Case 1:17-cr-20582-JEM Document 61 Entered on FLSD Docket 01/10/2018 Page 4 of 6

App. 31

Case 1:17-cr-20582-JEM Document 61 Entered on FLSD Docket 01/10/2018 Page 5 of 6

App. 32

Case 1:17-cr-20582-JEM Document 61 Entered on FLSD Docket 01/10/2018 Page 6 of 6

App. 33

